              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                          September 27, 2013

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

                                                 ~ ~
From:          Michael P. Colombo
               Western Regional M                ~~s, l ections, and Evaluations

Subject:       Verification Review - Recommendations for the Inspection Report, "Museum
               Collections: Preservation and Protection Issues with Collections Maintained by
               the Bureau ofLand Management" (C-IS-BLM-0005-2010, January 2010)
               Report No. WR-VS-BLM-0016-2013

        The U.S. Department of the Interior Office oflnspector General (OIG) has completed a
verification review of the two recommendations presented in the subject inspection report. Our
objective was to determine whether the Bureau of Land Management (BLM) implemented the
recommendations as reported to OIG and to the Office of Financial Management (PFM), Office
of Policy, Management and Budget. Based on BLM's March 12, 2010 response to the inspection
report, OIG considered Recommendation 2 resolved and implemented and referred
Recommendation 1 to PFM for tracking of implementation. PfM reported to OIG when BLM
had addressed and provided supporting information for the implementation of
Recommendation 1. As a result, Recommendation 1 was closed on September 23, 2010. Based
on our verification, we consider both recommendations resolved and implemented.

Background

        Our January 2010 inspection report, "Museum Collections: Preservation and Protection
Issues with Collections Maintained by the Bureau of Land Management," contained two
recommendations relating to correcting and/or mitigating, to the greatest extent possible,
deficiencies identified at the three sites identified in the report and inspecting all remaining BLM
sites that house museum collections.

       On March 12, 2010, BLM concurred with Recommendation 1 and stated that it satisfies
the OIG' s suggestion to inspect all remaining BLM sites that house museum collections under
Recommendation 2. For Recommendation 1, BLM stated that they would develop and
implement a plan to address the environmental and security deficiencies noted in the report.
BLM stated that it did not house museum collections in any facilities other than the three
reviewed by OIG and that the actions it agreed to take in its response to Recommendation 1
would also implement Recommendation 2. On April6, 2010, based on BLM' s response, OIG



                         Office of Audits, Inspections, and Evaluations 1Sacramento, CA
referred Recommendation 1 to PFM for tracking of implementation. PFM reported in a
memorandum dated September 23, 2010, that based on the actions taken to address the museum
preservation concerns at the three BLM facilities, PFM considered Recommendation 1
implemented, and the report closed.

Scope and Methodology

      The scope of this review was limited to determining whether BLM took action to
implement our recommendations. To accomplish our objective, we reviewed the supporting
documentation that BLM officials provided and discussed actions taken relating to the two
recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether BLM had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       Our current review found that BLM has implemented Recommendations 1 and 2.

       Recommendation 1: Correct and/or mitigate, to the greatest extent possible, deficiencies
       identified at the three sites identified in this report.

       Action Taken: The BLM’s Anasazi Heritage Center and the Billings Curator Center
have purchased the necessary equipment; developed the necessary plans, checklists, and
programs; and have sufficiently met Recommendation 1.

        The BLM’s National Historic Oregon Trail Interpretive Center (Center) has shown
improvement since PFM closed Recommendation 1. They appear to have struggled with
monitoring, record keeping, and acquiring and maintaining the operational equipment needed to
assess and maintain the humidity and temperature levels at the Center. Even so, the Center
obtained a score of 86 percent on its most recent inspection checklist, and the site is considered
to be in good condition. The Center also hired a permanent exhibit specialist and two interns to
assist with the workload and plans to repair or replace the entire HVAC system and to replace
the current lighting with LED fixtures.

        We concluded that BLM is correcting and/or mitigating, to the greatest extent possible,
the identified deficiencies at the three sites identified in our report. We, therefore, consider this
recommendation implemented.

       Recommendation 2: Inspect all remaining BLM sites that house museum collections and
       correct and/or mitigate, to the greatest extent possible, all identified deficiencies.




                                                   2
        Action Taken: In its March 12, 2010 response to our inspection report, BLM stated that
it did not house museum collections in any facilities other than the three reviewed in the report.
BLM explained that the BLM Manual Section 8140, Protecting Cultural Resources, prohibits the
management of museum collections in BLM offices other than those three locations. BLM
explained that the corrective and/or mitigation measures identified in response to
Recommendation 1 would satisfy the OIG's suggestion to inspect all remaining BLM sites that
house museum collections under Recommendation 2. OIG referred only Recommendation 1 to
PFM for tracking of implementation.

       According to BLM, the three sites within BLM that house museum arts and artifacts have
been examined by BLM, and one was examined by OIG. We, therefore, consider this
recommendation to be resolved and implemented.

Conclusion

      We informed BLM officials of the results of this review at an exit conference on
September 4, 2013. BLM officials concurred with our findings.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    Neil Kornze, Principal Deputy Director, Bureau of Land Management
       Nancy Thomas, Liaison Officer, Office of Financial Management
       Patrick McHugh, Liaison Officer, Office of Financial Management
       LaVanna Stevenson, Liaison Officer, Bureau of Land Management




                                                3
